BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in H&M Hennes & Mauritz, LP, a New
York limited partnership v. Malibu Textiles, Inc., a
New York corporation, were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 29th day of August, 2019:
Scott Alan Burroughs
Stephen Doniger
Frank Gregory Casella
DONIGER BURROUGHS APC
603 Rose Avenue
Venice, CA 90291
(310) 590-1820
scott@donigerlawfirm.com
stephen@donigerlawfirm.com
fcasella@donigerlawfirm.com

Counsel for Respondent
Staci Jennifer Riordan
Neal J. Gauger
NIXON PEABODY LLP
300 South Grand Avenue, 41st Floor
Los Angeles, CA, 90071
(213) 629-6000
sriordan@nixonpeabody.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 29, 2019.

Donna J. Wo l f

D

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary P
[seal]

o1~!;

JULIE ANNEKERS

Notary Pub!ic, Sta te
My Ccunm1ss1on Expires
February 21, 2023

